                            NATIONAL SCIENCE FOUNDATION
                                 4201 WILSON BOULEVARD
                                A ~ ~ N G T O VIRGINIA
                                              N,       22230
                                                                    Case Close-out-




     OFFICE OF
INSPECTOR GENERAL




MEMORANDUM

Date:                 March 4, 1999

To:                   File No. 99020003

From:

Through:                                                                      stigation

Re:



Background

We received an anonymous letter alleging th                      as being nominated for
senior executive service without adequate

Investigation

We referred the information t
                             k                 irector of IRM.She reviewed the packet
used tq n o m i n a t e a n d stated that t e documentation supports-
nomination.

Findings

The allegation letter was determined to be unfounded. This case is closed.
